                           CLOSEOUT FOR M92020007

       The subject of this case is         -            , formerly Assistant Professor in
                                                                     (the institution) in
                      OIG received an allegation that the subject had plagmid from a
proposai submitted from a Merent university. The Office of Inspector General (01G)
conducted an investigation and concluded that                      committed plagiarism
in a proposal he submitted to NSF. The plagiarism was extensive, involving major
substantive portions taken from two proposals originating fiom another institution, and
lesser portions of two proposals from his department. This conclusion is based on
investigationsperfbrmed by the subject's institution and OIG.

       OIG's investigation report, the Deputy Director's "Notice of Misconduct in
Science Determination and Proposed Debarment of [the subject]" of 22 July 1996, and
the Deputy Director's 13 September 1996 letter regarding debarment, constitute the
closeout for this case.

cc:   Assistant Counsel to the Inspector General, Deputy AIG-Oversight, AIG-
Oversight, IG




                                       Page 1 of 1
                              NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230
                     .
           ',
                .
                    ..              July 22, 1996'
                         4'




      mEWTHE
     D E P U n DIRECTOR

    CERTIFIED MAIL-RETURN RECEIPT REOUESTED




-   Re:    Notice of Misconduct in Science Determination and Proposed
           Debarment
    Dear
    This letter and'the attached investigative report serve as formal
    notice that the National Science Foundation (NSF) proposes to
    debar you from directly or indirectly obtaining the benefits of     ,

    Federal research grants for a period of one year. A person who
    is debarred will be excluded during the period of debarment from
    Federal financial and non-financial assistance and benefits under
    non-procurement Federal programs and activities. See 45 CFR
    9620.110, 9620.200. In addition, you also will be prohibited
    from receiving any Federal contracts or approved subcontracts
    under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart
    9.4 for the period of this debarment. 45 CFR §620.110(c).
    Debarment of an individual is effective throughout the executive
    branch of the Federal Government.
    Peasons for Debarment
    NSF's decision to propose debarment is based upon a referral from,
    our Of £ice of Inspector General (OIG). The Foundation1s
    administrative record indicates that YOU committed extensive



    As documented in the attached Investigative Report, two-thirds of
    the proposal has been copied, without attribution or permission,
    from four source proposals. Th
    material came from two NSF propos
